<html>
<title> - NOMINATION OF JAMES ``JEB'' E. BOASBERG</title>
<body><pre>[Senate Hearing 107-561]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-561
 
                NOMINATION OF JAMES ``JEB'' E. BOASBERG
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 ON THE

NOMINATION OF JAMES ``JEB'' E. BOASBERG TO BE AN ASSOCIATE JUDGE OF THE 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                             JUNE 26, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs




                       U. S. GOVERNMENT PRINTING OFFICE
80-608                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 THAD COCHRAN, Mississippi
THOMAS R. CARPER, Delaware           ROBERT F. BENNETT, Utah
JEAN CARNAHAN, Missouri              JIM BUNNING, Kentucky
MARK DAYTON, Minnesota               PETER G. FITZGERALD, Illinois
           Joyce A. Rechtschaffen, Staff Director and Counsel
                Jennifer E. Hamilton, Research Assistant
Marianne Clifford Upton, Staff Director and Chief Counsel, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
              Richard A. Hertling, Minority Staff Director
                   Johanna L. Hardy, Minority Counsel
       Theresa M. Prych, Minority Legislative Aide, Oversight of
   Government Management, Restructuring and the District of Columbia 
                              Subcommittee
                     Darla D. Cassell, Chief Clerk






                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Durbin...............................................     1
    Senator Bunning..............................................     5

                               WITNESSES
                        Wednesday, June 26, 2002

Hon. John Warner, a U.S. Senator from the State of Virginia......     2
Hon. Eleanor Holmes Norton, a Delegate from the District of 
  Columbia.......................................................     3
James ``Jeb'' E. Boasberg to be an Associate Judge of the 
  Superior Court of the District of Columbia.....................     3

                     Alphabetical List of Witnesses

Boasberg, James ``Jeb'' E.:
    Testimony....................................................     3
    Biographical and professional information....................     9
Norton, Hon. Eleanor Holmes:
    Testimony....................................................     3
Warner, Hon. John:
    Testimony....................................................     2

                                appendix

Senator Paul Strauss, Shadow U.S. Senator elected by the voters 
  of the District of Columbia....................................     6


                NOMINATION OF JAMES ``JEB'' E. BOASBERG

                              ----------                              


                        WEDNESDAY, JUNE 26, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:02 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Richard J. 
Durbin presiding.
    Present: Senators Durbin and Bunning.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Good afternoon. The hearing will come to 
order. I am pleased to welcome all of you to this hearing 
before the Senate Committee on Governmental Affairs to consider 
the nomination of James Emanuel (Jeb) Boasberg to be an 
Associate Judge on the District of Columbia Superior Court.
    On May 13 of this year Mr. Boasberg was nominated by 
President Bush to fill a vacancy created by the retirement of 
Judge Gregory Mize. Mr. Boasberg is currently an Assistant U.S. 
Attorney assigned to the homicide and major crimes section of 
the U.S. Attorneys Office for the District of Columbia. He has 
been an Assistant U.S. Attorney since 1996. He has prosecuted 
over 40 jury trial cases and some 25 to 30 bench trials. He has 
presented 11 appellate arguments in various assignments 
throughout his 6 years in the office.
    Prior to his public service career he was an associate at 
Kellogg, Huber, Hansen, Todd & Evans in Washington, DC, from 
1995 to 1996, and an associate at Keker & Van Nest in San 
Francisco from 1991 to 1994. He served as a law clerk for the 
Hon. Dorothy W. Nelson, U.S. Court of Appeals for the Ninth 
Circuit from 1990 to 1991. Mr. Boasberg is a District of 
Columbia native, and earned both his bachelor's and law degrees 
from Yale.
    I am certain this is a very special day for you, Mr. 
Boasberg, as you contemplate this next step in your legal 
career. I understand you may have some family members with you 
as well as supportive colleagues and friends. Would you care to 
introduce them at this time?
    Mr. Boasberg. Yes, thank you very much, Senator Durbin. 
First of all, thank you so much for having this hearing and 
acting on my nomination in such an expeditious fashion. I would 
also like to thank your staff which have been very helpful to 
me throughout.
    I would like to introduce some people--my wife is here, 
Liddy Manson, and my son, Daniel. We left our 2-year-old twin 
daughters at home in the interest of public safety. Also, my 
sister Melissa; my father and mother-in-law, Gavin Manson and 
Mary Manson; and then my parents, Sally Boasberg, and the 
photographer Tersh Boasberg. They are here on a very special 
day because today is their 42nd wedding anniversary. Finally, 
there are also a number of friends and colleagues, past and 
present, from the U.S. Attorneys Office.
    Thank you, sir.
    Senator Durbin. I would like to welcome my colleagues, the 
senior Senator from Virginia, John Warner, and Congresswoman 
Eleanor Holmes Norton of the District of Columbia, who are both 
here to offer words of introduction on behalf of Mr. Boasberg.
    Senator Warner, please proceed.

STATEMENT OF HON. JOHN WARNER, A U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Warner. I thank you, Mr. Chairman. This is one of 
those moments in my 24 years in the Senate that I look forward 
to. It is fairly interesting. This fine man who is now 6-foot-4 
or 5 inches in height, I have a picture taken of him in my 
office in the Pentagon when I was Secretary of the Navy. I had 
my son and the nominee over for some luncheon or something, and 
I had to leave my office. A photographer slipped in and got a 
picture of this nominee in my seat, feet on the desk, and one 
of my big cigars in his mouth, and my son was sitting there 
hilariously laughing. I feel like he is a member of the family.
    It is extraordinary, and the distinguished Chair of the 
Committee here has already enumerated his history and I will 
not go over the credentials of this fine individual and all he 
has achieved.
    Our careers have paralleled in the sense that I, too, had 
the privilege of being a law clerk to a Federal circuit judge, 
E. Barrett Prettyman, and I was privileged, with the support of 
the Chair and others, to name the courthouse here in honor of 
him several years ago. Then I went on from the clerkship to the 
U.S. Attorney's Office, where you are today, and I tried cases 
all through basically the same fundamental court structure for 
4 or 5 years and then back out into private law practice. So we 
have had a parallel career although separated, I guess, by 40 
years.
    So I would just like to take the time of the Committee to 
read one statement; something I have never done before in my 
many years in the Senate. I do so as follows, in closing, I 
would like to end my statement with a few words by my son John 
in support of Jeb Boasberg.
    My son writes, ``Since the 4th grade at St. Albans School I 
have regarded my good friend Jeb Boasberg as the embodiment of 
the young Abraham Lincoln during our civil war education class; 
matching him in physical stature, leadership, morality, wisdom, 
and just plain good looks. Jeb more than once saved me from my 
own devices at that young age. Not only did he provide a 
shining example of what a young boy could be to his peers, he 
also uplifted all his classmates in the eyes of the elder 
generation.''
    ``He has kept these values intact to this day, and has in 
fact polished them to a high patina. He is also one heck of a 
good basketball player, to which his swollen, broken right-hand 
middle finger will eternally attest.''
    I think at this point I will make a hasty withdrawal. Mr. 
Chairman, as you know, I am on the floor managing a small 
matter of concern to the Senate at this moment. I thank the 
indulgence of the Chair, the colleagues, and all who are in 
attendance. You are on your own. Good luck.
    Mr. Boasberg. Thank you.
    Senator Durbin. Thank you, Senator Warner. That small 
matter he is referring to is the Department of Defense 
authorization bill, that I certainly know is of great 
importance. I would just say for the record that Senator 
Warner's son knows how to play to the crowd since he is 
speaking of Abraham Lincoln to someone from Illinois.
    Congresswoman Norton.

 STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE FROM THE 
                      DISTRICT OF COLUMBIA

    Ms. Norton. Thank you, Mr. Chairman. I must say that if a 
nominee is able to keep his reputation intact with a peer since 
elementary school, that says a lot for him. I am pleased to 
support the nomination of James Boasberg. I do so entirely on 
the merits of a distinguished and professionally relevant 
career, though I make the disclosure that I have known his 
parents, Tersch and Sally Boasberg, for many years. They are 
outstanding Washingtonians, so I can assure you that Mr. 
Boasberg was raised right.
    Mr. Boasberg's career is tailor made for the bench of our 
city. His extensive experience in jury trials and prosecutions 
before the grand jury and appeals, his several awards, while he 
has been an Assistant U.S. Attorney, his civil and white-collar 
litigation experience here and in San Francisco in private 
firms, his clerkship on the Ninth Circuit Court of Appeals, his 
education, magna cum laude from Yale College and then Yale Law 
School and Oxford.
    I think this is precisely the kind of nominee that this 
Committee would want to confirm and I am pleased to commend his 
nomination to you at this time, Mr. Chairman.
    Senator Durbin. Thank you, Congresswoman Norton, for your 
attendance at these hearings with regularity. We are always 
happy to have you over here. I hope at some future day that you 
will have to tell us you have to leave because you have a vote 
on the floor.
    Mr. Boasberg, it is customary for this Committee to swear 
in witnesses. I would ask you to please stand and ask you to 
raise your right hand.
    [Witness sworn.]
    Senator Durbin. Let the record indicate the witness has 
answered in the affirmative. Do you have any opening remarks 
which you would like to make?

TESTIMONY OF JAMES ``JEB'' E. BOASBERG TO BE AN ASSOCIATE JUDGE 
       OF THE SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Boasberg. Just very quickly, Senator. I would like to 
thank Senator Warner and Congresswoman Norton for their 
incredibly gracious introductions and their appearance here 
today. I truly appreciate that.
    I would like to finally say that if I have acquired the 
legal skills required to be a judge, the knowledge of what is 
just, of how to deal with difficult issues, and what can be 
done for citizens of this city, I have learned it from my 
colleagues, many of whom are here today. And if I have the 
proper temperament to be a judge and can treat all kinds of 
people with civility, respect, and fairness, I have learned 
those things from my parents, and I would not be here without 
all of those people.
    Senator Durbin. Thank you. Well said. As a candidate for 
this appointment you have been through a thorough screening 
process, recommended by the D.C. Judicial Nominating Committee, 
subjected to an FBI background investigation, and subsequently 
selected and nominated by the President. Since your nomination 
was received in the Senate you have completed a thorough 
biographical questionnaire,\1\ Committee staff have conducted 
background checks and interviewed you. I have reviewed your 
responses and note that you have an extensive and exemplary 
record of service. 
---------------------------------------------------------------------------
    \1\ The biographical and professional information appears in the 
Appendix on page 9.
---------------------------------------------------------------------------
    There are three questions that are required of each nominee 
before this Committee which I will now ask you. Is there 
anything that you are aware of in your background that might 
present a conflict of interest with the duties of the office to 
which you have been nominated?
    Mr. Boasberg. No, sir.
    Senator Durbin. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Boasberg. No, sir.
    Senator Durbin. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term for the office to which you have been nominated?
    Mr. Boasberg. I do not.
    Senator Durbin. I have had the chance to review your 
background and I am not going to pretend to manufacture 
questions here; it is extraordinary. I am glad that you are 
dedicated to public service. We are lucky to have people like 
you who are willing to do that, and you are lucky to be part of 
a family that considers that to be a noble calling. I am sure 
that Daniel may not remember everything about this day but I 
hope he will recall that his dad was here and went through this 
confirmation.
    When you consider the fact that you will be appointed, with 
Senate confirmation, to a 15-year term, I am a little envious. 
We only get 6-year terms. But there comes, with that 
appointment, a certain concern based on my personal experience 
before I was ever elected to Congress. Some have characterized 
what I am about to describe as black robe-itis, when a judge 
reaches a lofty pinnacle and proceeds to gaze down on the 
assembled, unwashed multitude below.
    It is a phenomena or perception that once someone has 
received a long-term appointment as a judge many times, in 
their own minds, they vault themselves into some pantheon of a 
god-like creature who is unapproachable by mere humans. It 
happens, fortunately rarely, but it does happen. I think it 
does a disservice to the administration of justice and the law.
    So I would like, even though I know what your answer is 
going to be, I would like to put you on the record, if you 
would please, to talk about judicial temperament or what part 
that might play in your judicial appointment.
    Mr. Boasberg. One of the benefits of being an Assistant 
U.S. Attorney is that I have appeared in Superior Court every 
week, and often every day for long stretches over the last 5\1/
2\ years. During that time, I have had an opportunity to watch 
many judges, and get an assessment of both their abilities and 
their temperament.
    I would certainly hope that I would be able to act with 
civility, respect, and decency to everybody who came into that 
courtroom, be they attorneys, lawyers, victims importantly, 
witnesses, courtroom staff, and jurors. And that means things 
like getting onto the bench on time, not keeping jurors 
waiting, treating court reporters and courtroom staff with 
decency and courtesy.
    I think, in terms of the robe-itis, as you have called it 
Senator, a feeling of elevation above those who appear before 
you, I think that I am fortunate enough to know many people and 
to have good friendships with many people who are judges, who 
are prosecutors, and who are defense lawyers. And if I even 
tried to get away with anything like that, they would quickly 
let me know that I was acting out of character. So I will trust 
in that backbone of support to never let that occur.
    Senator Durbin. Thank you. Senator Bunning, do you have any 
questions?

              OPENING STATEMENT OF SENATOR BUNNING

    Senator Bunning. I have an opening statement that I would 
like, first of all, to ask unanimous consent that it be 
inserted in the record.
    Senator Durbin. Without objection.
    [The prepared opening statement of Senator Bunning 
follows:]
             PREPARED OPENING STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    Today, this Committee is considering the nomination of Jeb 
Boasberg, a nominee to be an Associate Judge of the D.C. Superior 
Court.
    As I have said before, judges play a critical role in our society.
    They have the unique task of enforcing the laws we create, and, 
more importantly, they're charged with insuring that the basic rights 
guaranteed to all American citizens are upheld in every case that comes 
before them.
    As an Assistant U.S. Attorney for the District of Columbia working 
within the homicide and major crimes section, Mr. Boasberg has seen a 
side of human nature that many of us, God willing, will never 
encounter, and I hope that Mr. Boasberg will be able to use his 
experiences both in the private and public sectors to run his courtroom 
fairly and expeditiously.
    I look forward to hearing from Mr. Boasberg today, and gaining his 
perspective on what will possibly be his new job.
    Thank you, Mr. Chairman.

    Senator Bunning. Yes, I have a couple of questions.
    Senator Durbin. Please proceed.
    Senator Bunning. I have had a similar experience that your 
father is going through today, as I have had a son who was an 
Assistant U.S. Attorney for 10\1/2\ years and just now is a 
judge in the Eastern District of Kentucky.
    I am sure your father will not let you get judge-itis, as I 
know my son will not get judge-itis, because I am not going to 
let him either. If you do have a problem, I am sure your peers, 
particularly on the bench, will straighten you out in a hurry.
    I know and have read your record and find you to be highly 
qualified for this unique position. It is a 15-year term, but 
with the right attitude and answering all the questions as you 
have, I am sure you will do a fine job for the District, and I 
am here to congratulate you, and I would like to lend my 
support to your nomination.
    Mr. Boasberg. Thank you very much, Senator.
    Senator Durbin. Thank you, Senator Bunning. Thank you, Mr. 
Boasberg, for your responses. I want to thank your family and 
friends for joining you today. I know you are anxious to see 
this confirmation completed and I will go out on a limb and 
predict that I think it is going to happen.
    I note receipt of a statement of support of your nomination 
from Paul Strauss, which will be included and be made part of 
the record.
    [The prepared statement of Paul Strauss follows:]
PREPARED STATEMENT OF SENATOR PAUL STRAUSS, SHADOW U.S. SENATOR ELECTED 
               BY THE VOTERS OF THE DISTRICT OF COLUMBIA
    Chairman Durbin and Members of the Senate Committee on Governmental 
Affairs, I am Paul Strauss, the U.S. Senator elected by the voters of 
the District of Columbia, a position referred to as the Shadow Senator. 
I am also an attorney practicing in the local courts of the District of 
Columbia. In each of these capacities, I appreciate the opportunity to 
provide this statement on behalf of my constituents in the District of 
Columbia. I wish to express my wholehearted support for the President's 
nomination of James E. Boasberg to be an Associate Judge of Superior 
Court of the District of Columbia.
    Mr. Boasberg has an accomplished record, having served as Assistant 
U.S. Attorney for the District of Columbia for the Appellate Division, 
Misdemeanor Section, Grand Jury Section, General Felony Section, 
Narcotics Section, Homicide Section, and the newly created Homicide and 
Major Crime Section. Mr. Boasberg's previous experience in private 
practice, as an associate with Kellog, Huber, Hansen, Todd and Evans of 
D.C., where he dealt with business litigation and criminal defense 
matters, has been of tremendous benefit to the District of Columbia and 
the citizens he has represented. Moreover, with his experience with 
specializing in First Amendment defamation work, complex civil 
litigation, and white-collar criminal defense, he offers the Superior 
Court a fresh perspective in these matters. His legal career also 
includes many significant cases such as United States v. Joseph Mesa 
Jr., United States v. Thomas Lewis and Raymond Weldon, and United 
States v. Darryl Turner to name a few. These cases dealt with heinous 
acts and dangerous criminals. These cases appear to have been handled 
with the utmost diligence and professionalism by Mr. Boasberg, and also 
resulted in convictions of the alleged perpetrators.
    Mr. Boesberg has also been recognized for his achievements in the 
field of law, by being awarded the U.S. Attorney's Office Special 
Achievement Award in 2001, 2000, 1999 and 1998. This obviously shows 
his competence as a trial lawyer and his future capacity for judicial 
temperament. Moreover his avid support for developmental programs 
displays his commitment to his community. For example, he is an 8-year 
member of the Ellington Development Council, which raises money, 
promotes community consciousness, and assists students at The Duke 
Ellington School for the Arts. Mr. Boasberg is also the Chairman and 
co-founder of the Bishop John T. Walker Fellowship Committee, which 
grants $2,500 to St. Albans School students to promote social service 
in lesser developed countries or poorer areas of the United States.
    Based on the information made available to my office, I have 
concluded that there is no reason not to support James E. Boasberg's 
nomination. I look forward to his investiture onto the Superior Court 
bench and I am confident that he will uphold the honor of our justice 
system. The nominee appears qualified to meet the responsibilities and 
tasks that an Associate Judge of Superior Court of the District of 
Columbia may face. So, today I ask that you vote yes for this 
nomination on behalf of the District of Columbia residents who do not 
have anyone in this body who vote on their behalf.

    Senator Durbin. The next step in the process will be prompt 
consideration at the full Committee markup in the very near 
future, and then report to the full Senate for final action.
    With that, this hearing is adjourned.
    [Whereupon, at 3:17 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0608.001

[GRAPHIC] [TIFF OMITTED] T0608.002

[GRAPHIC] [TIFF OMITTED] T0608.003

[GRAPHIC] [TIFF OMITTED] T0608.004

[GRAPHIC] [TIFF OMITTED] T0608.005

[GRAPHIC] [TIFF OMITTED] T0608.006

[GRAPHIC] [TIFF OMITTED] T0608.007

[GRAPHIC] [TIFF OMITTED] T0608.008

[GRAPHIC] [TIFF OMITTED] T0608.009

[GRAPHIC] [TIFF OMITTED] T0608.010

[GRAPHIC] [TIFF OMITTED] T0608.011

[GRAPHIC] [TIFF OMITTED] T0608.012

[GRAPHIC] [TIFF OMITTED] T0608.013

                                   - 

</pre></body></html>
